No.

In the Supreme Court of the United States
ERIC TREANTOS,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the United States
Court of Appeals for the First Circuit

PETITION FOR A WRIT OF CERTIORARI

Raymond E. Gillespie, Esquire
Attorney for the Petitioner
CJA Appointed Counsel
875 Massachusetts Avenue Suite 32
Cambridge, MA 02139
(617) 661-3222
rgillespie1@prodigy.net

QUESTION PRESENTED
1.
Does the First Circuit Court of Appeals' decision in petitioner's case conflict with
this Court's decisions in Booker v. United States, 543 U.S. 220 (2005) and Gall v. United
States, 552 U.S. 38 (200?) which held, inter alia, that criminal sentences must be
procedurally reasonable?

-2-

CITATION
United States v. Eric Treantos, No. 18-1543 (1st Cir. July 23, 2020) (Judgment), A true copy,
attached, at Appendix A. ("App.
").
JURISDICTION
The Court of Appeals had jurisdiction of this case under 18 U.S.C. § 1291. On July 23,
2020, it affirmed the judgment of the district court in all respects. Judgment entered on the same
date.
PETITION FOR WRIT OF CERTIORI
Eric Treantos (petitioner, defendant, Mr. Treantos) respectfully prays that a writ of
certiorari issue to review the judgment of the United States Court of Appeals for the First Circuit
entered in this proceeding on July 23, 2020 because it directly conflicts with this Court’s
decision in Gall v. United States, 552 U.S. 38, 51, 128 S. Ct. 586 (2007)(appellate court “must
first insure that the district court committed no significant procedural error, …such as failing to
consider the § 3553(a) factors..”).
STATEMENT OF THE CASE
Statement of Facts
In September, 2015 Mr. Treantos was indicted as the result of an undercover
investigation into a free, file-sharing internet website known to contain images of child
pornography.1 He had uploaded images of a nine year old girl, the daughter of his girlfriend. As
the girl was wearing only a bathing suit, or somewhat suggestive summer clothes in the images,
they were not child pornography. But they were images which could evoke a prurient interest in

1

Substantially all the facts recited in this statement of facts are taken from the case record and
are contained in “Defendant’s Opposition to Government’s Motion for Summary Affirmance
Pursuant to L.R.27(c )”, Appendix C.
-3-

some people. Eric, however, also downloaded from the site hundreds of photographic images and
thousands of videos which did contain child pornography.
Law enforcement investigating the website traced Eric’s activity on the site to the house
in New Hampshire where he lived with his girlfriend and her daughter. Officers from the federal
Department of Homeland Security Investigations (“HIS”) visited the house shortly thereafter.
Eric, a long-distance truck driver by trade, was traveling on a multi-day assignment for a
delivery in the Midwestern part of the country. He had taken his computer and cell phone with
him. Agents obtained his cell number from the girlfriend and called him. They explained the
investigative results to him but learned that, on a tip from a family member, he had thrown his
laptop computer into a dumpster several hundred miles away earlier on the trip. Regardless, he
both agreed to turn around and try to retrieve it and that he would not erase any images from his
cell phone. Over the next two days Eric remained in frequent phone contact with the agents
apprising them of his progress. He was able to retrieve the laptop from the dumpster. As
instructed, he stopped at a law enforcement station en route and turned the items over to them for
transfer to the HSI agents. When he arrived home to New Hampshire he was arrested without
resistance by HSI. He was, however, very afraid and remorseful. He plaintively asked the
officers: “Is there help for someone like me?”
Mr. Treantos was promptly arrested and shortly thereafter charged in a three count
indictment alleging production of child pornography (Count One), distribution of child
pornography (Count Two), and possession of child pornography (Count Three). He pled not
guilty at arraignment but eventually pled guilty to Counts Two and Three. Count One was
dismissed by the government after sentencing.

-4-

He was eventually sentenced to 210 months in prison to run concurrently on both counts
of conviction.
On appeal to the First Circuit Court of Appeals he asserted that his sentence was
procedurally unreasonable in violation of this Court’s decisions in Booker v. United States, 543
U.S., 125 S. Ct. 738 (2005), Gall v. United States, 552 U.S. 38, 51, 128 S. Ct. 586 (2007) and
progeny. See Judgment,Appendix A ("App. A") p. 1.

ARGUMENT
I.

THE FIRST CIRCUIT'S DECISION IS CONTRARY TO THIS COURT’S
DECISION IN GALL V. UNITED STATES , THAT A SENTENCE MUST BE
PROCEDURALLY REASONABLE UNDER THE SENTENCING GUIDELINES.

A.

Under Gall Both District and Courts of Appeal Must Consider the “Nature and
Circumstances of the Offense and the Characteristics of the Defendant.”
Neither the district court nor the court of appeals gave any real consideration to the

extraordinary circumstances of either Eric’s extremely abusive and neglectful childhood or his
voluntary and extensive cooperation in turning over the massive inculpatory evidence used to
obtain his conviction. But for that assistance it appears extremely doubtful that his sentencing
guidelines would have approached the final calculation subjecting him to a sentence up to 210
months in prison. Trial counsel laid out defendant’s immediate cooperation with the authorities:
“from very early on he sought to take responsibility for this. He, as the
Court knows, retrieved his laptop for the police and gave it to them which
they used as evidence against him. He sat down and gave voluntary Mirandized
statements. He allowed them to take over his online persona so that they could
go after other people who do these activities.
So, here’s someone who, to a large degree, realized the jig was up
and kind of gave in to it in a large degree which, as I see it on his behalf,

-5-

was one big cry for help.”

App. “C”, p. 1.

In spite of the evidence of such extraordinary and voluntary co-operation the trial court
completely ignored it in its statement of the rationale for the sentence of 210 months in prison,
the high end of the calculated sentencing range of 144 to 210 months.
“I have read the letters you submitted. I have read Mr. Keating’s Report. I’m not
persuaded that the defendant does not pose a substantial serious risk to children, and I’m going to
sentence at the top end of the guideline range. I don’t see a basis for – I agree with Mr. Huftalen,
I don’t see a basis for a non-guideline sentence downward. I don’t see a departure basis or
variant basis. And I gather from Mr. Huftalen’s presentation that the charges and the exposure
could have been much, much worse in this case had it been charged differently. But I think that
the overriding interest here, the controlling interest here is protection of the public and I suppose
to an extent general deterrence.”
Sentencing Tr. 11-12; Appendix 56-57.
The judge did not say anything about Eric’s extraordinary cooperation in producing the
evidence used to convict him. That was error that should not go uncorrected.

Conclusion
For the reasons stated above, the defendant, Eric Treantos, respectfully prays that his
petition for certiorari be granted.
Respectfully submitted,
ERIC TREANTOS,
By his attorney,

Raymond E. Gillespie, Esquire
Appointed CJA Counsel for Petitioner
875 Massachusetts Ave Suite 32
-6-

Cambridge, MA 02139
(617) 661-3222
rgillespie1@prodigy.net

-7-

APPENDIX A
JUDGMENT
United States v. Treantos
No. 18-1543

Case: 18-1543

Document: 00117619326

Page: 1

Date Filed: 07/23/2020

Entry ID: 6354943

United States Court of Appeals
For the First Circuit
_____________________
No. 18-1543
UNITED STATES,
Appellee,
v.
ERIC TREANTOS,
Defendant - Appellant.
__________________
Before
Torruella, Kayatta and Barron,
Circuit Judges.
__________________
JUDGMENT
Entered: July 23, 2020
Defendant appeals his 210-month sentence for distribution and possession of child
pornography, arguing that the district court committed procedural error by failing to properly
consider certain mitigating sentencing factors set out in 18 U.S.C. § 3553(a). The government has
moved for summary affirmance of the district court's decision. Defendant has filed an opposition,
which he has moved to be filed under seal. We have carefully reviewed the parties' briefs and the
record below and GRANT both the government's motion for summary disposition and defendant's
motion to file his opposition under seal. However, we ORDER defendant to show cause within
seven days as to why the provisionally sealed motion to file under seal should not be unsealed. See
Local Rule 11.0(c)(2).

By the Court:
Maria R. Hamilton, Clerk

Case: 18-1543

Document: 00117619326

cc:
Raymond Elwood Gillespie
Eric Treantos
Seth R. Aframe
Arnold H. Huftalen

Page: 2

Date Filed: 07/23/2020

Entry ID: 6354943

APPENDIX B
United States Motion for Summary Affirmance
United States v. Treantos
No. 18-1543

Case: 18-1543

Document: 00117445727

Page: 1

Date Filed: 05/31/2019

Entry ID: 6257633

UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
UNITED STATES OF AMERICA
v.
ERIC TREANTOS

)
)
)
)
)

C.A. No. 18-1543

UNITED STATES' MOTION FOR SUMMARY AFFIRMANCE
Defendant Eric Treantos was indicted for manufacturing,
distributing and possessing child pornography. The defendant
ultimately pleaded guilty to the distribution and possession charges and
the government dismissed the manufacturing charge. The guideline
range for the defendant was 168 to 210 months of imprisonment. The
district court imposed a 210-month sentence, a within-in guideline
sentence. The defendant argues on appeal that the sentence imposed
was procedurally unreasonable because the district court did not
adequately address the mitigating factors that the defendant presented
in support of a lower sentence.
According to the presentence report, the relevant facts were as
follows. The defendant maintained a large collection of child
pornography consisting of over 1,700 images and 650 videos. The

Case: 18-1543

Document: 00117445727

Page: 2

Date Filed: 05/31/2019

Entry ID: 6257633

majority of the defendant's child pornography collection involved
prepubescent girls. The defendant also was involved in trading images
over the internet. One of the videos in the defendant's possession was
an original image. In a confession, the defendant admitting that he
obtained this video of a 15 year-old girl masturbating by communicating
with the girl over the internet. The defendant also admitted to
distributing this image to others. The defendant further admitted to
engaging in sexual conduct with an underage female with whom he had
a familial relationship. S. App. 64-67.
The defendant suffered significant sexual trauma as a young child
based on abuse inflicted by the defendant's biological father. The
defendant had been diagnosed with bipolar disorder and attention
deficit hyperactivity disorder. The defendant underwent a
psychological and sexual evaluation as part of the sentencing process.
The report concluded that the defendant exhibits "deviant sexual
interest in prepubescent boys and girls." S. App. at 35.
At sentencing, the defendant argued for a 144-month sentence. In
support of that sentence, the defendant relied on the following
considerations. He (1) took responsibility for his misconduct early on in

2

Case: 18-1543

Document: 00117445727

Page: 3

Date Filed: 05/31/2019

Entry ID: 6257633

the investigation; (2) suffered severe sexual abuse during childhood;
and (3) had no prior criminal history.
The government responded with a 210-month request. The
government acknowledged the defendant's childhood trauma but argued
that, absent that fact, it would have sought an upward variance in light
of the defendant's abhorrent conduct. The government argued that a
long sentence was warranted to separate the defendant from children
"for a very long time." Government counsel further commented that the
defendant "presents a more troubling person in terms of danger to
others in the community than virtually everyone" that government
counsel had previously prosecuted, save one other case. App. at 55.
After hearing argument, the district court agreed with the
government and imposed a 210-month sentence. In support of that
conclusion, the court provided the following explanation:
I have read the letters you submitted. I have read the
[psychological and sexual] report. I'm not persuaded that
the defendant does not pose a substantial serious risk to
children and I'm going to sentence at the top of the guideline
range. . . I don’t see a basis for a non-guideline sentence
downward. I don’t see a departure basis or a variant basis.
And I gather from [the government's] presentation that the
charges and the exposure could have been much, much
worse in this case had it been charged differently. But
I think that the overriding interest here, the controlling
3

Case: 18-1543

Document: 00117445727

Page: 4

Date Filed: 05/31/2019

Entry ID: 6257633

interest here is protection of the public and I suppose to an
extent general deterrence.
App. at 56. The defendant did not object to the district court's
explanation of the sentence, preserving only objections to the
calculation of the guideline range, which he has not raised on appeal.
App. at 59.
The defendant's claim on appeal is that the district court did not
adequately explain the sentence by failing to address more specifically
the basis on which the defendant sought leniency. When a defendant
does not contest to the district court's explanation during the sentencing
hearing, review on appeal is limited to plain error. United States v.
Ruiz-Huertas, 792 F.3d 223, 227 (1st Cir. 2015). Thus, to obtain relief,
the defendant must show that an error occurred, that was clear or
obvious and which not only affected the defendant's substantial rights
but also seriously impaired the fairness, integrity or public reputation
of the judicial proceedings. Id.
"It is settled law . . . that the failure to adequately explain a
sentence, in and of itself, is not plain error." Ruiz-Huertas, 792 F.3d at
227. A defendant must also show that, but for the error, the district
court would have imposed a different, more favorable sentence." Id.
4

Case: 18-1543

Document: 00117445727

Page: 5

Date Filed: 05/31/2019

Entry ID: 6257633

The defendant has not remotely demonstrated how a more
fulsome explanation by the district court would have resulted in a more
favorable sentence. The court received written pleadings and heard
oral argument on why the defendant's upbringing was a mitigating
factor. The court also heard the government argue for a guideline
sentence based on the need to protect the public.
After hearing the argument, the district court specifically
referenced the psychological and sexual report, which discussed in
detail, the defendant's upbringing and the effect of that upbringing on
the defendant's conduct. The court nevertheless concluded, after
reading the report, that a guideline sentence was appropriate because
the defendant was a danger to children.
It is often the case that "a court's reasoning can be inferred by
comparing what was argued by the parties . . . with what the judge
did." United States v. Jimenez-Beltre, 440 F.3d 514, 519 (1st Cir. 2006)
(en banc). So it is here. The district court heard and read about the
abuse that the defendant suffered as a child but concluded that the risk
of the defendant causing future harm was the paramount consideration
such that a guideline sentence was appropriate.

5

Case: 18-1543

Document: 00117445727

Page: 6

Date Filed: 05/31/2019

Entry ID: 6257633

In the end, the defendant's claim is not really an argument about
the explanation provided. It is an argument that the district court
overvalued the need to protect the public against the unique
characteristics of the defendant, i.e., the history of childhood abuse.
But sentencing is "more an art than a science." United States v.
Clogston, 662 F.3d 588, 593 (1st Cir. 2011). The weighing of the factors
that go into a sentence is a task largely within the district court's
discretion. Id.
Here, one side argued mitigation from the guideline range based
on the defendant's personal circumstances and the other side argued
public protection as the reason for a guideline sentence. After hearing
both sides make their case, the court sided with the government. "That
the sentence court does not to attach to certain of the mitigating factors
the significance [the defendant] thinks they deserve" is not a basis for
overturning the sentence. Clogston, 662 F.3d at 593.
For the reasons stated, the defendant has not demonstrated plain
error in the sentencing proceeding. Therefore, the Court should grant
the government's motion for summary affirmance.

6

Case: 18-1543

Dated:

Document: 00117445727

Page: 7

Date Filed: 05/31/2019

Entry ID: 6257633

Respectfully submitted,
SCOTT W. MURRAY
United States Attorney

May 31, 2019

By: /s Seth R. Aframe
Seth R. Aframe
Assistant U.S. Attorney
First Circuit No. 87645
53 Pleasant Street
Concord, NH 03301-3904
(603) 225-1552
seth.aframe@usdoj.gov
CERTIFICATE OF SERVICE
I hereby certify that a copy of this pleading has been served via
ECF electronic filing to Raymond E. Gillespie, counsel for the
defendant.
/s Seth R. Aframe
Seth R. Aframe
Assistant U.S. Attorney

7

APPENDIX C

Defendant’s Opposition to Government’s Motion for Summary
Affirmance Pursuant to L.R. 27(c)

United States v. Treantos
No. 18-1543

Motion to File UNDER SEAL Pending.

Supreme Court of the United States
No.

ERIC TREANTOS,
Petitioner,
V.
UNITED STATES OF AMERICA,
Respondent.
Certificate of Service
I, Raymond E. Gillespie, attorney for the petitioner, Eric Treantos, hereby certify that I
served the foregoing Petition for Writ of Certiorari, on all parties by mailing first class, postage
prepaid, one copy each to Seth R. Aframe, Assistant United States Attorney, 53 Pleasant Street,
Concord, New Hampshire 03301-3904 and to the Solicitor General of the United States, Room
5616, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, D.C. 20530-0001 on
the date indicated below:

Dated: October 21, 2020

Raymond E. Gillespie, Esquire
Mass. B.B.O. # 192300
CJA Appointed Counsel
875 Massachusetts Avenue Suite 32
Cambridge, MA 02139
(617) 661-3222
Rgillespie1@prodigy.net

